         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Special Report




       Federal Information Security
       Management Act

       Fiscal Year 2005 Status of EPA’s
       Computer Security Program

       Report No. 2006-S-00001


       October 3, 2005
Report Contributors: 	   Rudolph M. Brevard
                         Charles Dade
                         Cheryl Reid
                         Neven Morcos
                         Sejal Shah
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460




                                                                               INSPECTOR GENERAL

                                        October 3, 2005


MEMORANDUM

SUBJECT: 	Fiscal Year 2005 Federal Information Security Management Act Report

TO: 	        Stephen L. Johnson
             Administrator


        Attached is the Office of Inspector General’s (OIG) completed Fiscal Year (FY) 2005
Federal Information Security Management Act Reporting Template, as prescribed by the Office
of Management and Budget (OMB). In addition, Appendix A synopsizes the results of our
significant FY 2005 information security audits.

In accordance with OMB reporting instructions, I am forwarding this report to you for
submission, along with the Agency’s required information, to the Director, Office of
Management and Budget.



                                       Nikki L. Tinsley


Attachment

cc:
Assistant Administrator for Environmental Information and Chief Information Officer
Director, Office of Technology Operations and Planning
Senior Agency Information Security Officer
Director, National Technology Services Division
Associate Director, Technical Information Security Staff
Operations Security Manager, National Technology Services Division
Audit Coordinator, Office of Environmental Information
Audit Coordinator, Technical Information Security Staff
                                                                        Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                    Agency Name: Environmental Protection Agency
                                                                                       Question 1 and 2
1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor
of an agency or other organization on behalf of an agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number
of systems reviewed in this evaluation for each classification below (a., b., and c.).

                To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
                1) Continue to use NIST Special Publication 800-26, or,
                2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53

                Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency,
                therefore, self reporting by contractors does not meet the requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient.
                Agencies and service providers have a shared responsibility for FISMA compliance.

2. For each part of this question, identify actual performance in FY 05 by risk impact level and bureau, in the format provided below. From the representative subset of systems
evaluated, identify the number of systems which have completed the following: have a current certification and accreditation, a contingency plan tested within the past year, and
security controls tested within the past year.
                                                         Question 1                                                                   Question 2
                                                a.                       b.                         c.                        a.                       b.                    c.
                                          FY 05 Agency            FY 05 Contractor        FY 05 Total Number of      Number of systems       Number of systems      Number of systems
                                             Systems                  Systems                    Systems                certified and         for which security  for which contingency
                                                                                                                         accredited          controls have been      plans have been
                                                                                                                                            tested and evaluated   tested in accordance
                                                                                                                                                in the last year      with policy and
                                                                                                                                                                         guidance


                    FIPS 199 Risk       Total        Number         Total        Number         Total        Number         Total       Percent       Total       Percent       Total      Percent of
Bureau Name         Impact Level       Number       Reviewed       Number       Reviewed       Number       Reviewed       Number       of Total     Number       of Total     Number        Total
Office of
Administrator           High                  3              0            0              0             3              0            0        0.0%            0         0.0%            0          0.0%
                        Moderate              0              0            0              0             0              0            0        0.0%            0         0.0%            0          0.0%
                        Low                   0              0            0              0             0              0            0        0.0%            0         0.0%            0          0.0%

                        Not
                    Categorized               0              0            0              0             0              0            0        0.0%            0         0.0%            0          0.0%
                    Sub-total                  3              0            0              0            3              0            0        0.0%            0         0.0%            0          0.0%
Office of Air and
Radiation
                                              2               1           0               0           2               1            0        0.0%            1      100.0%             1        100.0%
                         Moderate            11               0           0               0          11               0                                     0        0.0%             0             0
                                                                                                                                            0.0%
                             Low              4              0            2              0             6              0            0                        0         0.0%            0          0.0%
                              Not                                                                                                           0.0%
                      Categorized            0               0            0              0            0               0            0                        0        0.0%             0          0.0%
                        Sub-total            17               1            2              0          19               1            0        0.0%            1      100.0%             1        100.0%




High



                                                                                                       1

                                              a.                      b.                         c.                       a.                       b.
                                        FY 05 Agency           FY 05 Contractor        FY 05 Total Number of      Number of systems           Number of          Number of systems for
                                          Systems                  Systems                    Systems               certified and         systems for which      which contingency
                                                                                                                     accredited            security controls     plans have been tested
                                                                                                                                           have been tested      c. accordance with
                                                                                                                                                                 in
                                                                                                                                           and evaluated in      policy and guidance
                                                                                                                                             the last year
                    FIPS 199 Risk     Total     Number         Total     Number         Total       Number         Total       Percent     Total      Percent       Total     Percent
Bureau Name         Impact Level     Number    Reviewed       Number    Reviewed       Number      Reviewed       Number       of Total   Number      of Total     Number     Of Total
Office of                                                                                                                                                                           0.0%
Administration
and Resources
Management                  High          0            0           0              0           0               0         0         0.0%          0        0.0%            0
                        Moderate           6            1           2             0           8               1         0         0.0%           1     100.0%            0          0.0%
                             Low           3           0           0              0           3               0          0        0.0%          0        0.0%            0          0.0%
                              Not
                      Categorized         0            0           0              0           0               0            0      0.0%           0       0.0%             0         0.0%
                        Sub-total          9            1           2              0         11               1            0      0.0%           1     100.0%             0         0.0%
Office of Chief                                                                                                                                                                     0.0%
Financial Officer          High            1           0           0              0           1               0         0         0.0%          0        0.0%            0
                        Moderate          16            7          0              0          16               7         0         0.0%          0        0.0%            0          0.0%
                            Low            1           0           0              0           1               0          0        0.0%          0        0.0%            0          0.0%

                              Not
                      Categorized         0            0           0              0           0               0            0      0.0%           0       0.0%             0         0.0%
                        Sub-total         18            7           0              0         18               7            0      0.0%           0       0.0%             0         0.0%
Office of                                                                                                                                                                           0.0%
Enforcement and
Compliance
Assurance                   High          0            0           0              0           0               0         0         0.0%          0        0.0%            0
                        Moderate           8            1          0              0           8               1         0         0.0%           1     100.0%            0          0.0%
                             Low           2           0           0              0           2               0          0        0.0%          0        0.0%            0          0.0%
                              Not                                                                                                 0.0%                   0.0%                       0.0%
                      Categorized         0            0           0              0           0               0            0                     0                        0
                        Sub-total         10            1           0              0         10               1            0      0.0%           1     100.0%             0         0.0%
Office of
Environmental
Information-
Central                       High        3            0           0              0           3               0         0         0.0%          0        0.0%            0          0.0%
                        Moderate          6             1           1             0           7               1         0         0.0%           1     100.0%            0          0.0%
                              Low         4            0           0              0           4               0          0        0.0%          0        0.0%            0          0.0%
                               Not
                      Categorized         0            0           0              0           0               0            0      0.0%          0        0.0%             0         0.0%
                    Sub-total             13            1           1              0         14               1            0      0.0%           1     100.0%             0         0.0%
Office of
Environmental
Information-
Non-Central             High               0              0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                        Moderate          10              0        3               0         13               0            0      0.0%           0       0.0%             0         0.0%
                        Low               8               0        3               0         11               0            0      0.0%           0       0.0%             0         0.0%
                        Not
                    Categorized                           0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                    Sub-total             18              0        6               0         24               0            0      0.0%           0       0.0%             0         0.0%




                                                                                              2

                                             a.                      b.                         c.                       a.                       b.            c.
                                       FY 05 Agency           FY 05 Contractor        FY 05 Total Number of      Number of systems           Number of          Number of systems for
                                         Systems                  Systems                    Systems               certified and         systems for which      which contingency
                                                                                                                    accredited            security controls     plans have been tested
                                                                                                                                          have been tested      in accordance with
                                                                                                                                          and evaluated in      policy and guidance
                                                                                                                                            the last year
                    FIPS 199 Risk    Total     Number         Total     Number         Total       Number         Total       Percent     Total      Percent       Total     Percent
Bureau Name         Impact Level    Number    Reviewed       Number    Reviewed       Number      Reviewed       Number       of Total   Number      of Total     Number     Of Total
Office of General
Counsel                 High             0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                        Moderate         1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                        Low                              0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                        Not
                    Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%

                    Sub-total             1              0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
Office of
International
Activities              High             0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                        Moderate         1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                        Low              0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                        Not
                    Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%

                    Sub-total             1              0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
Office of the
Inspector
General                 High             2               0        0               0          2               0            0      0.0%           0       0.0%             0         0.0%
                        Moderate         3               0        0               0          3               0            0      0.0%           0       0.0%             0         0.0%
                        Low              3               0        0               0          3               0            0      0.0%           0       0.0%             0         0.0%
                        Not
                    Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                    Sub-total            8               0        0               0          8               0            0      0.0%           0       0.0%             0         0.0%
Office of
Prevention
Pesticides and
Toxic
Substances              High             0               0        0               0          0               0            0      0.0%           0       0.0%                       0.0%

                        Moderate         6               0        0               0          6               0            0      0.0%           0       0.0%             0         0.0%
                        Low              2               0        0               0          2               0            0      0.0%           0       0.0%             0         0.0%
                        Not
                    Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                    Sub-total            8               0        0               0          8               0            0      0.0%           0       0.0%             0         0.0%
Office of
Research and
Development             High             5               0        0               0          5               0            0      0.0%           0       0.0%             0         0.0%
                        Moderate         6               0        0               0          6               0            0      0.0%           0       0.0%             0         0.0%
                        Low              3               0        0               0          3               0            0      0.0%           0       0.0%             0         0.0%
                        Not
                    Categorized           0              0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                    Sub-total            14              0        0               0         14               0            0      0.0%           0       0.0%             0         0.0%




                                                                                             3

                                           a.                      b.                         c.                       a.                       b.            c.
                                     FY 05 Agency           FY 05 Contractor        FY 05 Total Number of      Number of systems           Number of          Number of systems for
                                       Systems                  Systems                    Systems               certified and         systems for which      which contingency
                                                                                                                  accredited            security controls     plans have been tested
                                                                                                                                        have been tested      in accordance with
                                                                                                                                        and evaluated in      policy and guidance
                                                                                                                                          the last year
                  FIPS 199 Risk    Total     Number         Total     Number         Total       Number         Total       Percent     Total      Percent       Total     Percent
Bureau Name       Impact Level    Number    Reviewed       Number    Reviewed       Number      Reviewed       Number       of Total   Number      of Total     Number     Of Total
Office of Solid
Waste and
Emergency
Response              High             0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Moderate         6               1        0               0          6               1            0      0.0%           1     100.0%             0         0.0%
                      Low              5                        1               0          6               0            0      0.0%           0       0.0%             0         0.0%
                      Not
                  Categorized           0              0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Sub-total        11              1        1               0         12               1            0      0.0%           1     100.0%             0         0.0%
Office of Water           High         0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Moderate         9               1        0               0          9               1            0      0.0%           1     100.0%             0         0.0%
                           Low         1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                            Not
                    Categorized        0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%

                  Sub-total            10              1        0               0         10               1            0      0.0%           1       100%             0         0.0%
Region 1              High                             0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Moderate         1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                      Low                              0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Not
                  Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                  Sub-total            1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
Region 2              High             0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Moderate          2              0        0               0          2               0            0      0.0%           0       0.0%             0         0.0%
                      Low               0              0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Not
                  Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                  Sub-total            2               0        0               0          2               0            0      0.0%           0       0.0%             0         0.0%
Region 3              High             0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Moderate         1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                      Low              0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Not
                  Categorized          0               0        0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                  Sub-total            1               0        0               0          1               0            0      0.0%           0       0.0%             0         0.0%




                                                                                           4

                                       a.                     b.                         c.                    a.                    b.           c.
                                 FY 05 Agency          FY 05 Contractor        FY 05 Total Number of   Number of systems        Number of         Number of systems for
                                   Systems                 Systems                    Systems            certified and      systems for which     which contingency
                                                                                                          accredited         security controls    plans have been tested
                                                                                                                             have been tested     in accordance with
                                                                                                                             and evaluated in     policy and guidance
                                                                                                                               the last year
              FIPS 199 Risk    Total    Number         Total     Number         Total       Number      Total    Percent     Total     Percent       Total     Percent
Bureau Name   Impact Level    Number   Reviewed       Number    Reviewed       Number      Reviewed    Number    of Total   Number     of Total     Number     Of Total

Region 4          High             0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Moderate         1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
                  Low              0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Not
              Categorized          0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
              Sub-total            1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
Region 5          High             0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Moderate         2              0        0               0         2             0         0      0.0%           0       0.0%            0         0.0%
                  Low              1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
                  Not
              Categorized          0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
              Sub-total            3              0        0               0         3             0         0      0.0%           0       0.0%            0         0.0%
Region 6              High         0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Moderate         1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
                       Low         0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                        Not
                Categorized        0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Sub-total        1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
Region 7          High             0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Moderate         1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
                  Low              0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
                  Not
              Categorized          0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%
              Sub-total            1              0        0               0         1             0         0      0.0%           0       0.0%            0         0.0%
Region 8         High              0              0        0               0         0             0         0      0.0%                   0.0%                      0.0%
                 Moderate          1              0        0               0         1             0         0      0.0%                   0.0%                      0.0%
                 Low               1              0        0               0         1             0         0      0.0%                   0.0%                      0.0%
                        Not
                Categorized        0              0        0               0         0             0         0      0.0%           0       0.0%            0         0.0%




                  Sub-total        2              0        0               0          2            0         0      0.0%           0       0.0%            0         0.0%




                                                                                      5

                                              a.                       b.                          c.                       a.                       b.            c.
                                        FY 05 Agency            FY 05 Contractor         FY 05 Total Number of      Number of systems           Number of          Number of systems for
                                          Systems                   Systems                     Systems               certified and         systems for which      which contingency
                                                                                                                       accredited            security controls     plans have been tested
                                                                                                                                             have been tested      in accordance with
                                                                                                                                             and evaluated in      policy and guidance
                                                                                                                                               the last year
                  FIPS 199 Risk      Total       Number         Total      Number         Total       Number         Total       Percent     Total      Percent       Total     Percent
Bureau Name       Impact Level      Number      Reviewed       Number     Reviewed       Number      Reviewed       Number       of Total   Number      of Total     Number     Of Total


Region 9                    High           0               0         0               0          0               0            0      0.0%           0       0.0%             0         0.0%

                       Moderate            1               0         0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                            Low            0               0         0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                             Not
                     Categorized           0               0         0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                       Sub-total           1               0         0               0          1               0            0      0.0%           0       0.0%             0         0.0%
Region 10                   High           0               0         0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                      Moderate             0               0         0               0          0               0            0      0.0%           0       0.0%             0         0.0%
                            Low            1               0         0               0          1               0            0      0.0%           0       0.0%             0         0.0%
                             Not
                    Categorized            0             0           0               0         0             0               0      0.0%           0       0.0%             0         0.0%
                      Sub-total            1             0           0               0         1             0               0      0.0%           0       0.0%             0         0.0%
                  Sub-total              155            13          12               0       167            13               0      0.0%           6     100.0%             1        20.0%
Agency Totals        High                 16             1           0               0        16             1               0      0.0%           1      16.7%             1        20.0%
                     Moderate            100            12           6               0       106            12               0      0.0%           5      83.3%             0         0.0%
                      Low                39             0           6             0         45              0             0       0.0%            0       0.0%            0         0.0%
                      Not
                  Categorized             0             0           0             0          0              0             0       0.0%            0       0.0%            0         0.0%
                           Total        155            13          12             0        167             13             0       0.0%            6     100.0%            1        20.0%
Comments: Question 1- The OIG accepted the Agency's numbers as accurate without verification. Question 2 The universe of systems reviewed for 2.a through 2.c represents unique
subsets of the Agency's systems, based on individual reviews conducted by the OIG. The universes for: 2.a is 7; 2.b is 6; and 2.c is 5. Therefore, we calculated the respective column
percentages by dividing the respective number by the universe for that column. 2.b we gave credit for system testing and evaluations if the security of the servers associated with the
systems were being monitored using vulnerability scanning software (such as ISS or Nessus) or configuration management software (such as Bindview or ESM).




                                                                                                6

                                                                                                   Question 3
In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.
            The agency performs oversight and evaluation to ensure information systems used 

            or operated by a contractor of the agency or other organization on behalf of the agency

            meet the requirements of FISMA, OMB policy and NIST guidelines, national security policy,

            and agency policy. Self-reporting of NIST Special Publication 800-26 requirements by a 

            contractor or other organization is not sufficient, however, self-reporting by another Federal 

            agency may be sufficient. 

   3.a. 	                                                                                                         - Almost Always, for example, approximately 96-100% of the time
            Response Categories:
                     Rarely, for example, approximately 0-50% of the time
                     Sometimes, for example, approximately 51-70% of the time
            -        Frequently,  for example, approximately 71-80% of the time
            -        Mostly, for example, approximately 81-95% of the time
             -       Almost Always, for example, approximately 96-100% of the time 

            The
            -    agency has developed an inventory of major information systems (including major national 

            security
            -        systems) operated by or under the control of such agency, including an identification of 

            the interfaces between each such system and all other systems or networks, including those not 

            operated by or under the control of the agency. 


  3.b. 	    Response Categories:                                                                                  - Approximately 96-100% complete
                  Approximately 0-50% complete
                  Approximately 51-70% complete
            -     Approximately 71-80% complete
            -     Approximately 81-95% complete
            -     Approximately 96-100% complete
            -
  3.c. 	    The
            -   OIG generally agrees with the CIO on the number of agency owned systems.                          Yes


            The OIG generally agrees with the CIO on the number of information systems
  3.d.                                                                                                            Yes
            used or operated by a contractor of the agency or other organization on behalf of the agency.


  3.e.      The agency inventory is maintained and updated at least annually.                                     Yes

   3.f.     The agency has completed system e-authentication risk assessments.                                    Yes

Comment: 3.c and 3.d - The OIG accepted the Agency's numbers as accurate without verification.




                                                                                                     7

                                                                                                      Question 4
4
Through this question, and in the format provided below, assess whether the agency has developed, implemented,
and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which
the following statements reflect the status in your agency by choosing from the responses provided in the drop
down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

         Rarely, for example, approximately 0-50% of the time
         Sometimes, for example, approximately 51-70% of the time
-        Frequently, for example, approximately 71-80% of the time
-        Mostly, for example, approximately 81-95% of the time
  -      Almost Always, for example, approximately 96-100% of the time
-
-4.a.           The POA&M is an agency wide process, incorporating all known IT security weaknesses
                associated with information systems used or operated by the agency or by a contractor of               Almost Always, for example, approximately 96-100% of the time
                the agency or other organization on behalf of the agency.
                                                                                                                   -
4.b.            When an IT security weakness is identified, program officials (including CIOs,
                if they own or operate a system) develop, implement, and manage POA&Ms for                             Almost Always, for example, approximately 96-100% of the time   .
                their system(s)
                                                                                                                   -
4.c.             Program officials, including contractors, report to the CIO on a regular basis
                                                                                                                       Almost Always, for example, approximately 96-100% of the time
                 (at least quarterly) on their remediation progress.
                                                                                                                   -
4.d.            CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.           Almost Always, for example, approximately 96-100% of the time
                                                                                                                   -
4.e.             OIG findings are incorporated into the POA&M process.                                                 Almost Always, for example, approximately 96-100% of the time

4.f. 	          POA&M process prioritizes IT security weaknesses to help ensure significant IT security  -
                                                                                                               Almost Always, for example, approximately 96-100% of the time
                weaknesses are addressed in a timely manner and receive appropriate resources
Comment: 4.a. Although we found that the Agency is putting POA&Ms in place for security weaknesses that they
                                                                                                         -   are made aware of, they did not have adequate processes in place to
discover security weaknesses that should have been easily identified.




                                                                                                       8

                                                                                          Question 5



OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation
process, including adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and
Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This includes use of the FIPS 199
(February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST
documents used as guidance for completing risk assessments and security plans .



Assess the overall quality of the Department's certification and accreditation process.

                        Response Categories:
                         Excellent
                                                                                                                  - Good
                         Good
                         Satisfactory
             -           Poor
             -           Failing
             -
              -
Comments: This-is based on auditor opinion that EPA’s overall rating for C&A existing policies are excellent (OMB response category), oversight and review processes are good
(OMB response category), and Program Office execution (for our five selected systems) is poor (OMB response category).




                                                                                                       9

                                                                           Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                           Agency Name: Environmental Protection Agency


                                                                          Question 6
                         Is there an agency wide security configuration policy?
            6.a.                                                                                                                                                          Yes
                         Yes or No.
                         Comments:
                         Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
           6.b.          Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy
                         on the systems running the software.
                                                                                                     Approximate the extent of implementation of the security
                                                                                                     configuration policy on the systems running the software.

                                                                                                     Response choices include:
                                                                                                     - Rarely, or, on approximately 0-50% of the
                                                                                                       systems running this software
                                                                                                     - Sometimes, or on approximately 51-70% of
             Product
                                                               Addressed in                            the systems running this software
                                                               agencywide          Do any agency     - Frequently, or on approximately 71-80% of
                                                                 policy?            systems run        the systems running this software
                                                                                   this software?    - Mostly, or on approximately 81-95% of the
                                                                                                       systems running this software
                                                                  Yes, No,                           - Almost Always, or on approximately 96-100% of the systems
                                                                   or N/A.           Yes or No.      running this software
   Windows XP Professional                                          Yes                 Yes
                                                                                                       - Almost Always, or on approximately 96-100% of the systems running
   Windows NT
                                                                     Yes                Yes          this software
   Windows 2000 Professional
                                                                     Yes                Yes
                                                                                                       - Mostly, or on approximately 81-95% of the systems running this
   Windows 2000 Server
                                                                     Yes                Yes          software
                                                                                                       - Almost Always, or on approximately 96-100% of the systems running
   Windows 2003 Server
                                                                     Yes                Yes          this software
   Solaris
                                                                     Yes                Yes
   HP-UX
                                                                    N/A                  No
   Linux
                                                                     Yes                Yes
   Cisco Router IOS
                                                                     Yes                Yes
   Oracle                                                            Yes                Yes
                                                                                                 - Mostly, or on approximately 81-95% of the systems running this
   Other. Specify: Unix 5.1
                                                                   Yes              Yes        software
Comments: We reviewed a small subset of server configuration settings on a total of 4 servers (1 for each of 4 of the product’s configuration settings we commented
on above). We had the following results: Windows 2000 Server, we reviewed 17 out of 134 settings included in the SCD and found 15 complied. For Windows 2003
Server, we reviewed 17 out of 183 settings included in the SCD and found 17 complied. For Windows NT, we reviewed 10 out of 101 settings included in the SCD and
found 10 complied. For Unix 5.1, we reviewed 7 out of 89 settings included in the SCD and found 6 complied.




                                                                                       10

                                                                                  Question 7

Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

         The agency follows documented policies and procedures for identifying and reporting incidents internally.
7.a. 	                                                                                                                                                        Yes
         Yes or No.
       The agency follows documented policies and procedures for external reporting to law enforcement authorities.
7.b. 	                                                                                                                                                        Yes
       Yes or No.
       The agency follows defined procedures for reporting to the United States Computer Emergency Readiness Team (US-CERT).
7.c. 	 http://www.us-cert.gov                                                                                                                                 Yes
       Yes or No.
Comments:

                                                                                      Question 8
         Has the agency ensured security training and awareness of all employees, including contractors and those employees with significant
         IT security responsibilities?

         Response Choices include: 
                                                                                                                   Mostly, or
                                                                                                                                                   -
         - Rarely, or, approximately 0-50% of employees have sufficient training 
                                                                 approximately 81-95% of
 8
         - Sometimes, or approximately 51-70% of employees have sufficient training                                                                employees have sufficient
         - Frequently, or approximately 71-80% of employees have sufficient training                                                               training
         - Mostly, or approximately 81-95% of employees have sufficient training
         - Almost Always, or approximately 96-100% of employees have sufficient training

Comment:

                                                                                        Question 9

         Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training, ethics training, or any other 

 9       agency wide training? 
                                                                                                                              Yes
         Yes or No.





                                                                                             11

12 

                                                                                  Appendix A

                Summary of Significant Fiscal 2005 

                    Security Control Audits 


During Fiscal 2005, EPA’s Office of Inspector General (OIG) conducted several audits of EPA’s
information technology security program and information systems. The following summary
synopsizes key findings and recommendations. Copies of all final reports are located on the
OIG’s Internet site at http://www.epa.gov/oig/publications.htm.

1. Audit of EPA’s Fiscal 2004 and 2003 Financial Statements, Report No. 2005-1-00021,
November 15, 2004

The requirement for audited financial statements was enacted to help bring about improvements
in agencies’ financial management practices, systems, and controls so that timely and reliable
information is available for managing Federal programs. In conjunction with this audit, we
reported Reportable Conditions related to system development, and certification and
accreditation, of EPA’s Grant Payment Allocation System (GPAS) and Inter-Governmental
Document Online Tracking System (IDOTS). In addition, we continued to report that we are
unable to assess the application processing controls surrounding the Integrated Financial
Management System (IFMS) – EPA’s core financial system. Specifically, we reported:

       •	 The Office of Chief Financial Officer (OCFO) developed and implemented the GPAS
          and IDOTS accounting systems without assessing the risks these systems pose to
          Agency assets, personnel, and operations. In addition, EPA did not produce key
          security documents for these systems, nor ensure management controls were
          operating effectively by assessing and testing security controls for the GPAS and
          IDOTS. We made several recommendations to OCFO’s Director, Office of Financial
          Services to improve the GPAS and IDOTS’ security. These included: (1) conducting
          a formal risk assessment; (2) conducting a review of GPAS’ compliance with all
          applicable Joint Financial Management Improvement Program system requirements;
          and (3) directing offices to follow Agency system development policy. We also,
          recommended that the Director: (1) complete and document a formal certification and
          accreditation; (2) update the systems’ certification and accreditation status in the
          Agency’s self-assessment database; (3) develop and implement a formal patch
          management process; and (4) implement a formal process to conduct vulnerability
          scanning and control testing on a regular basis.

       •	 We continue to be unable to assess the adequacy of the automated application control
          structure as it relates to automated input, processing, and output controls for IFMS.
          Since IFMS has a direct and material impact on the Agency’s financial statements,
          assessing each application is necessary to determine the reliance we can place on the
          financial statements. During past financial statement audits, we attempted to evaluate
          controls without systems documentation, but these alternatives proved to be


                                              13 

           inefficient and impractical. OCFO has no plans to update the IFMS system
           documentation until it implements the new financial replacement software package,
           currently projected for Fiscal 2008. Until the new system is in place, we cannot
           assess the adequacy of the automated internal control structure.

2. Security Configuration and Monitoring of EPA’s Remote Access Methods Need
Improvement, Report No. 2005-P-00011, March 22, 2005 W
Found
Our audit of various EPA remote access methodologies determined that system administrators
did not configure Web-Mail and BlackBerry servers to provide secure remote access to the
Agency’s network. We found that the system administrators did not configure or update
59 percent of the Web-Mail and BlackBerry servers to mitigate vulnerabilities. We also found
several of the Agency’s BlackBerry devices were not adequately configured, secured, or
monitored. We found deficiencies in security configuration settings and physical security of
BlackBerry devices.

We made several recommendations to EPA’s Director, Office of Technology Operations and
Planning. These included establishing and requiring all remote access systems to have security
monitoring and network vulnerability scanning; developing standards that define authorized open
ports and services for the Web-Mail and BlackBerry servers’ Operating System; and conducting
a risk assessment and establishing a process to consistently configure devices. The Agency
generally agreed with the recommendations and indicated corrective actions that, when
implemented, would address the recommendations.

3. PeoplePlus Security Controls Need Improvement, Report No. 2005-P-00019, July 28,
2005

Our review identified three significant issues in the security administration of PeoplePlus.
First, the Agency had not followed prescribed procedures for managing user access privileges,
monitoring changes in employee responsibilities, and processing system access requests.
Second, EPA did not verify or conduct the required National Agency Check with Inquiries and
Credit background screenings for 45 percent (10 of 22) of contractor personnel with PeoplePlus
access. Third, EPA implemented PeoplePlus without adequately implementing security controls
for two key processes. Specifically, the Office of Chief Financial Officer had not properly
secured default user IDs and did not adequately separate incompatible duties performed by the
Security Administrator.

We recommended the Directors of EPA’s Office of Financial Services and Office of Human
Resources take 13 actions to improve PeoplePlus security controls. These recommendations
address areas where EPA could improve user access management and contractor background
screening procedures. These recommendations include: (1) reinforcing the requirements to
follow prescribed policies and procedures; (2) providing a training program to increase
awareness and ability to perform security duties; (3) evaluating the need for system development
contractors to have access to the production environment; and (4) establishing a milestone date to
complete contractor background screening. We recommended that EPA evaluate all default user
IDs to secure them, and assign Security Administrators’ responsibilities in a manner that



                                               14 

provides adequate separation of incompatible duties. EPA concurred with all of our
recommendations and provided a plan of action to address concerns.

4. Agency Information Systems Security Controls Audit, Planned Final Report Date is
October 2005

Our objectives were to provide an independent evaluation of the information security program
and practices of the Agency. This included selecting a sample of EPA’s information systems
and: (1) evaluating certification and accreditation to determine Agency compliance with Federal
guidance; (2) determining whether security control costs are integrated into the life cycle of the
system; (3) determining whether security controls have been tested and evaluated in the last year;
(4) reviewing contingency plans and the testing of plans; (5) reviewing compliance with system
standard configuration documents; and (6) conducting and analyzing results of technical
vulnerability scans. We began this audit in February 2005 and plan to issue the final report in
October 2005.

5. Physical Access and Service Continuity/Contingency Controls for Financial and Mixed-
Financial Systems Located at the Research Triangle Park Campus, Planned Final Report
Date is November 2005

The OIG hired a contractor to access physical assess controls and service continuity/contingency
for financial and mixed-financial applications located at its Research Triangle Park Campus in
North Carolina. The audit’s objectives were to: (1) gather the inventory of financial and mixed
financial applications hosted at the Research Triangle Park facility to guide their review;
(2) evaluate physical security controls in accordance with relevant Federal and EPA criteria and
best practices; and (3) evaluate service continuity/contingency controls in accordance with
relevant Federal and EPA criteria and best practices. The contractor began this audit in
February 2005 and plans to issue its final report in November 2005.




                                               15 

